                                              NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 109070043                                                                 Page 10f1


         We were infonned that the subject l was tenninated from a universitl for improperly using a
         procurement card for personal use and fraudulently charging $525.32 to an NSF award,3 We
         recommended that NSF debar the subject for a period of one year, and NSF concurred with our
         recommendation. 4 The Recommendation for Debarment Actions,NSF's Notice of Proposed
         Debarment, and NSF's Debarment Notice are attached.                   .

         Therefore, this case is closed.




NSF OIG Form 2 (11/02)
t.   .,




          CONFIDENTL,\L                                                                           CONFIDENTIAL




                  National Science Foundation 
                                               i




                   Office of Inspector General 





                       Confidential 

           Recommendation for Debarment Actions· 

                 Case Number 1-09070043 


                                     S\eptember21, 2009 



          TIlls Confidential Recommendation for Debarment Actions is the property of the NSF OIG and may be
          disclosed outside NSF only by OIG under the Freedom of Information and Privacy Acts, 5 V.S.c. §§ 552,
          552a.

                                                                                           NSF OIG Fonn 22b (11106)
                                    Executive Summary
                                        \
 Allegation          . . University reported that a fonner employee made improper personal
                     procurement card purchases charged to an NSF award.

 Subject             Denise Auger, fonner employee   of_      University.

. Background         _      University detennined that, while employed by the University, the
                     subject misused a procurement card to make personal purchases and
                     falsely justified them as appropriate expenses on an NSF award. . .
                     University tenninated the subject's employment, and referred the matter to
                     the Division of Institution and Award Support (DIAS) at NSF, which then
                     forwarded the matter to our office.

 University Action   The subject's supervisor at . . University discovered the improper use
                     of funds during the preparation of the annual report of an NSF award. The
                     subject wrote a check in the amount of the inappropriate charges ($525.32)
                     and the charges were removed from the award. The subject was
                     subsequently tenninated from . . University. The University then
                     conducted a full review of the subject's procurement card and the award
                     expenditures and did not find additional fraudulent charges.

OIG
Recommendations      OIG recommends that NSF debar the subject for one year.




                                              2

· I.       Factual Background


                                      Science Foundation
                                               the University
                                                    The goal               is to forge a working
 relationship between researchers in the statistical sciences and applied mathematical sciences to
 confront data-related scientific questions. The _          program is a continuing multi-million
 dollar grant that began i n " and received a second award in"? NSF Award No. . . .
 ~.l Denise Auger (Subject) served as Assistant Directo~ of _                   during this seqond
 award.' As Assistant Director,5 she was responsible for the development and implementation of
 the _        annual budget, the coordination of National Science Foundation reviews of
 the oversight of the production of the              annual report, coordination with the
 Administrative Assistant for Finance and the              finance staff        at
        University and the University of                                    and the acquisition of
          equipment and furniture. Therefore, she had access to and control over NSF award
 funds, and held a fiduciary duty to both" University and NSF.

         Auger's misconduct began on August 30, 2008, when she charged $189.41 for a rental
 car to the NSF award. Auger later charged $184.68 for hotel fees 7 on January 5, 2009, $93.23
       6

 for a rental car8 on April 16,2009, and $58.00 for parking 9 on April 20, 2009. These combined
 charges of $525.32 were personal in nature and unrelated to the award at issue, but she
 knowingly provided false information in financial records so that they would be charged to the
 NSF award.

 II.       Actions Taken B y " University

        Dr.                      the Principal Investigator (PI) on the _          award and the
 subject's supervisor, discovered the improper charges on May 3, 2009, during the preparation of
 the annual report. Once identified, the subject admitted charging personal expenses to her
 university procurement card, and also to falsely characterizing those charges so that they would
 be charged to the NSF award. lo She provided a personal check for $525.32 to reimburse . .
 University for the inappropriate use of her procurement card, and the University then removed


2      _  University's job title for this position is "Program Director." 

3   The subject was the Assistant Director of             from September 17,2007 until May 27, 2009. 

4 . At the time the subject'was the Assistant Director o f _ , the second award had been awarded $5,410,000. 


5   Tab 1, Job Description of Assistant Director o f _ . 

6   Tab 2, Enterprise Leasing Company Receipt and Information Form. 

7   Tab 3, Ramada Limited Receipt and Information Form. 

sTab 4, Hertz Rent-A Car Receipt and Information Form. 

9   Tab 5,                                                   Parking Receipt and Information Form. 

10 Tab 6, Subject Letter to Supervisor Addressing Inappropriate Charges. 





                                                       3
     the inappropriate charges from the NSF award. ll Dr.. _       then recommended that the subject
     be terminated. 12 The subject was terminated from the University on May 27, 2009 for the failure
-/ 	 to follow laws, policies, and procedures and for the failure to u s e " University property for
     legitimate work purposes.13 The subject later appealed the termination, but the decision was
     ultimately upheld by the University. 14

          NSF OIG was forwarded a notification from _         Universityl5 that was initially received
  by the Division of Institution and Award Support (DIAS).16 The notification stated that an
  employee at the University was terminated for improperly using a procurement card for personal
  use and for the inappropriate justification of those expenses as part of the _         NSF award.
  The notification also noted that the University would be conducting a full review of the NSF
  grant and the subject's procurement card to determine if any other unauthorized expenses were
  made and/or charged to the grant. NSF OIG contacted the official and requested the name of the
  employee, along with a·description of the position, the documents of the termination, and a copy
  of the University'S reconciliation review that discovered the misuse of funds .

         . . University provided NSF OIG with the requested documents and results of its
  review, which determined that there were no other inappropriate and/or personal charges made to
  the subject's procurement card. Moreover, the PIon the grant reviewed the expenditures of the
  award and was unable to find any other fraudulent charges made by the subject. l7 ,IS The . .
  University Office of Sponsored Programs reviewed the reconciliation and agreed with the
  conclusions ofthe review.                                                  .

  III.        OIG Assessment

              A.      Grounds for Debarment

          NSF may debar a person for "Violation of the terms of ~ public agreement. .. such as ...
  [a] willful failure to perform in accordance with the terms of one or more public agreements or
  transactions... or. .. [a] willful violation of a statutory or regulatory provision or requirement
  applicable to a public agreement or transaction. . . ,,19 The subject was in a position of
  administration of NSF funds. She admitted to using an official procurement card for personal

  II     Tab 7, Spreadsheet of Fraudulent Charges Removed f r o m _ . 

  12     Tab 8, _    Corrective Action Notice. 

  13     Tab 9, Request for Termination. 

  14     Tab 10, Response to Dispute Resolution Meeting. 

  15     The _     University official that brought the issue to NSF's attention was the • • •

  16 	   The NSF official that brought this notification to our attention was the          for the Cost Analysis and
         Audit Resolution Branch (CAAR), DIAS within the Office of Budget, Finance, and Award Management.
  17     Tab 11, Review                     Expenses for 2007/2008 FY.
  18     Tab 12, Review o f _ Expenses for 2008/2009 FY.
  19     2 C.F.R. § 180.800(b)(l) & -(3).




                                                            4

  purchases, and admitted to mischaracterizing those charges so that they would be charged to the 

  NSF award. She was tenninated for failure to comply with laws, policies .and procedures, 

. misusing _        University property, and falsifYing university records. This conduct clearly 

  indicates a lack of integrity and the violation of public agreements as an administrator with both 

  _     University and NSF.

          B.       Burden of Proof

         In debannent actions, the burden of proof lies with the federal agencY' (NSF) to
 demonstrate that a cause for debarment exists. 2o The cause for this proposed debarment must be
 established by a preponderance of the evidence. 2l
          r
          C.       Relevant Factors

        The debarment regulation lists 19 factors that the debarring official must consider, if
 applicable?2 The following factors are'pertinent to this case:

                   1.         Actual or Potential Harm or Impact23

         The subject's actions resulted iIi the unauthorized charging of $525.32 of personal
 expenses to an NSF grant on four different occasions and the falsification of a university'S
 financial records. In addition to using an official procurement card for personal expenditures, she
 knowingly. mischaracterized those charges so that they would be inappropriately charged to an
 NSF award. Though the total value of the theft was low, we believe it would have been
 significantly higher had her supervisor not timely discovered her thefts less than 9 months after
 she began to make unauthorized personal purchases and falsely charge them to the NSF award.
 At the time that she was tenninated from her employment, the NSF award at issue totaled in
 excess of $5,000,000, and smaller personal purchases under this award may not have been easily
 discovered.

                   2.         Frequency or Duration of Incidents24

       The subject's fraudulent use of her procurement card extended over a period of
approximately eight months an~ included four separate charges. Further, the subject's actions
ceased only after University officials discovered the fraudulent activity.




20   2 C.F.R. § 180.855(a).
21   2 C.F.R. § 180.850(a).
22   2 C.F.R. § 180.860.
23   2 C.F.R.§ 180.860(a).
24   2 C.F.R. § 180.860(b).




                                                     5
                   3.         Pattern of Wrongdoing25

        The subject made fraudulent 'chl:!rges four times over a period of eight months, including
twice in four days. There was no indication that the subject would have 'stopped her misconduct
as no attempt was made to correct the inappropriate charges until after she' was caught by the
University.

                   4.         Role in Wrongdoing26

        The subject planned, initiated, and carried out the wrongdoing. The subject claimed that
the use of the card on all four occasions was accidental (i.e. pulling the wrong card out of a
wallet), although the pattern of usage and the number of times the card was used donot support
this claim. Further, the subject admits that even when she realized' she used her university
procurement card for' inappropriate expenses, she falsely characterized these personal
expenditures as related to the NSF award so that they would be charged to and reimbursed by
federal award funds.

                   5.         Acceptance of Responsibility27

       The subject accepted responsibility of her misconduct, both verbally and in writing, and
returned the full amount of improper expenses to the University. The subject also fully
acknowledged her failure to act with honesty aq.d integrity and for acting fraudulently as well.

                   6.         Repayment 28

          The subject returned $525.32 prior to her termination from the University:

                   7.         Cooperation of the Subject29

       The subject agreed to return all. of the improperly-charged expenses and fully
acknowledged her mi&conduct.' The subject also engaged in a Dispute Resolution Meeting with
her supervisor, the PI, and University officials because the subject believed that she was
wrongfully terminated despite her misconduct. The terinination was ultimately upheld. .




25   2 C.F.R. § 180.860(c).
26   2 C.F.R. § 180.860(1).
27   2 C.F.R. § 180.860(g).
28   2 C.F.R. § 180.860(h).
29   2 C.F.R. § 180.860(i).




                                                     6

                    8.         Position Held by Subject30

        As described above, as Assistant Director, the subject was responsible for the
development and implementation of the _          annual budget, the coordination of National
Science Foundation reviews of           the oversight of the production of the          annual
report, the coordination with the        Administrative Assistant for Finance and the
finance staff persons at                    University and the University of
_ , and the acquisition of                equipment and furniture. Thus, the subject's position
required the oversight of budgetary and financial aspects of the _         program, including
access to both funds and records, and required a working relationship with NSF, the source of
those funds. The subject had professional fiduciary responsibilities to serve as a responsible
steward ofNSF funds, and misused her position to make false charges to federal award funds.

IV.        Recommendations

        Despite the subject's termination, she continues to possess the skills to be hired in
positions administerin'g and/or overseeing federal awards. In order to further protect the interests
of the public and NSF, we recommend that NSF debar the subject for one year.




30   "2 C.F.R. § 180.860(k).



                                                      7
                                  NATioNAL-SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD .
                                     ARWNGToN, VIRGINIA 22230
                                        "'" '




                                      JAN 2 9 2010
     OFFICE OF THE 

    DEPUTY DIRECTOR 





. CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Be: Notice ofProposed Debarment


Dear Ms. Auger:

ill light of your misconduct, this letter serves as formal notice that the National Science
Foundation ("NSF'') is proposing to debar you from directly or indirectly obtaining the benefits
of Federal grants for one year. During your period of debannent, you will be precluded from
receiving Federal financial and non-financial assistance and benefits under non-procurement
Federal programs and activities. In addition, you will be prohibited from receiving any Federal
contracts or approved subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly,
during your debarment period, you will be barred from having supervisory responsibility, primary
management, substantive control over, or critical influence on, a grapt, contract, or cooperative
agreement with any agency of the Executive Branch of the Federal Government.


Reason for Debarment

Your debarment is based upon a referral from NSF's Office ofInspector General ("OIG").
NSF's record demonstrates that you misused a University procurement card to make personal
purchases and falsely justified them as appropriate expenses on an NSF award.
Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

(b) 	   Violation of the terms of a public agreement or transaction so serious as to affect the
        integrity of any agency program, such as --­

        (1) A willful failure to perform in accordance with the tenus of one or more public
            agreements or transactions;


        (3) A willful violation of a statutory or regulatory provision or requirement applicable to
            a public agreement or transaction; or

***
(d) 	 . Any other cause of so serious or compelling a nature that it affects your present
        responsibility.                                                              .


In any debarment action, the government must establish the cause for debarment by a
preponderance ofthe evidence. 2 CFR 180.850. In this case, as outlined in the OIG's
investigative report, you admitted making personal purchases with your University procurement
card. You also admitted mischaracterizing these pu,rchases as appropriate expenses on an NSF
award. Therefore, your misconduct supports·a cause for debarment under 2 CFR 180.800(b) and
(d).


Length ofDebarment
                                              -
Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally; a period ofdebarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. ld.
Having considered the seriousness of your actions, as well as the relevant aggravating and
mitigating factors set forth in 2 CPR 180.860, we are proposing debarment for a period of one
year.


Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person, or in writing, or though a representative, infonnatj,on and ar&ument in opposition to
this proposed debarment. 2 CFR 180.815, 180.820. Comments submitted within the 30-day
period wi1l receive full consideration and may lead to a reviSion of the recommended disposition.
If NSF does not receive a response to this notice within the 30-day period, this debarment will
become final.


Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia,22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.




                                                    Sincerely,

                                                    ~ S.·~cv~
                                                    Cora B. Marrett
                                                    Acting Deputy Director



Enclosures:
Nonprocurement Debarment Regujations
FAR Regulations
,,
                                        NATlONALSCIENCEFOUNDATlON (
                                            4201 WILSON BOULEVARD
                                            ARLINGTON, VIRGINIA 22230

                                                                                       ./




                                              APR 1 6 lO\o
           OFFICE OF   THE 

          OEPUlY DIRECTOR 





     VIA CERTIFIED MAIL - RETURN RECEIPT REQUESTED 





             Re: Debarment

     Dear Ms. Auger: .

     On January 29,2010, the National Science Foundation (''NSF'') sent you a Notice ofProposed
     Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
     ofFederal grants for a period of one year. The Notice sets forth in detail the circumstances
     giving rise to NSF's decision to propose "your debarment. Specifically. NSF indicated in the
     Notice that the proposed debarment is based upon your misuse ofa University procurement card
     to make personal purchases, and your subsequent attempt to ,falsely justify the purchases as
     appropriate e~penses on an NSF award. ill that Notice, NSF provided you with thirty days to
     respond to the proposed debarment.

     Over thirty days have elapsed and NSF has not received a response. Accordingly. you are
     debarred until January 29,2011. Debarment precludes you from receiving Federal financial and
     non-financial assistance and benefits under non~procurement Federal programs and activities
     unless an agency head or authorized designee makes a determination to grant an exception in
     accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
     cooperative agreements. scholarships, fellowships, contracts of assistance, IOanB, loan guarantees,
     subsidies, insurance, pay.t,nents for specified use, and donation agreements,

     In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
     the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this '
     debarment. 2 CFR Section 180.170. During the debarment period, you may not have
     supervisory responsibility, primary managemen,t, substantive control over, or critical influence
     on, a grant, contract, or cooperative agreement with any agen~y of the Executive Branch ofthe
.

                                   t                                         (


      Federal Government.

     ", If you have any questions regarding the foregoing, please contact Eric S. Gold, Assistant General
        Counsel, National Science Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard,
        Room 1265, Arlington, Virginia,22230.




                                                           Sincer~ly,




                                                           Cora B. Marrett
                                                           Acting Deputy Director
